                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM
L

    Case Number: A-07050028                                                                    Page 1 of 1



           We received an allegation from the complainant1that the subject's2 NSF proposal3 contained
           some ideas taken from the complainant's work. Our review showed that the subject and the
           complainant worked on similar research projects. The subject, who had been invited by the
           complainant to come to the subject's institution to give a talk, discussed the research projects
           with the complainant and one of the complainant's students. The complainant provided the
           subject with samples so the subject could pursue similar lines of research. The complainant also
           admits that he did not know whether or not the subject had been working in the specific area
           presented in the proposal at the time of his visit.

           We also noted that the subject's NSF proposal referenced the complainant's past work as well as
           the fact that the complainant shared samples with the subject specifically for the project.

           We found insufficient evidence to support the alleged intellectual theft of ideas from the
           complainant in the subject's NSF proposal.

           This case is closed and no further action will be taken.




                                                                                                ," was




qSF OIG FOIm 2 ( I 1 /02)
